LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 4, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: No. 19-152:

AMARIN PHARMA, INC., AMARIN PHARMACEUTICALS IRELAND, LTD.
V. INTERNATIONAL TRADE COMMISSION, ET AL.

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Private Respondents, on November 4, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Petitioners and the Respondent
International Trade Commission:
PETITIONERS:
Ashley C. Parrish
King & Spalding LLP
1700 Pennsylvania Ave., NW
Suite 200
Washington, DC 20006-2706
202-626-2627
aparrish@kslaw.com

RESPONDENT INTERNATIONAL
TRADE COMMISSION:
Noel Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of the Private Respondents'
Brief in Opposition in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

